                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: 112100078                                                                       Page 1 of 1



        Small businesses certify in their proposals for SBIR Phase I or II awards that they have adequate
        facilities to conduct the research they propose. This investigation was opened from a proactive
        review 1 to determine the adequacy of the facilities that a company2 represented in its proposa.Is. 3
        In this case, it appeared the company did not have the facilities as described in the proposals.
        Also, the PI4 on two of the awards 5 appeared to be a full time employee of other institutions
        while she was the PI on those awards. We verified the research was being conducted by the
        company in leased incubator research space. We also determined the PI was not the same person
        listed as staff in the other institutions during the award period.

        This case is closed with no further action taken.




         2


         4
         5




NSF OIG Form 2 (11/02)
